                        AUDIT REPORT



Award of the Diebold, Inc.
Contract
   June 4, 2014




                  Report Number SM-AR-14-005
                                                                           June 4, 2014

                                                 Award of the Diebold, Inc. Contract

                                                        Report Number SM-AR-14-005




BACKGROUND:
U.S. Postal Service maintenance              contracting officials did not assess price
mechanics traditionally have repaired        reasonableness or obtain higher level
and changed locks for Postal                 review and approval as required. We
Service-owned mailboxes. To reallocate       found the Postal Service did not conduct
maintenance mechanics from the field to      an analysis to establish that contract
mail processing facilities, Western Area     payments of $18,399,448 provided the
Maintenance Operations asked Supply          best value, although this does not
Management to contract this work.            necessarily indicate the Postal Service
                                             incurred losses.
The Postal Service awarded a contract
to Diebold, Inc. on September 22, 2010,      Further, officials inadequately analyzed
to repair and change locks in the            Postal Service internal lock repair and
Western Area. On November 10, 2011,          maintenance costs. Based on our
the American Postal Workers Union filed      calculations, they overestimated the
a grievance with the Postal Service,         annual cost savings by $6,839,456 per
which was initially denied and later         year and outsourced the work to Diebold
arbitrated on July 6, 2012. The arbitrator   based on this inflated cost savings
found in favor of the American Postal        assumption.
Workers Union and ordered the Postal
Service to terminate the Diebold             WHAT THE OIG RECOMMENDED:
contract, which it did on December 31,       We recommended management train
2013, having paid Diebold $18,399,448        contracting officials on Postal Service
between January 2012 and November            policies and procedures for developing
2013.                                        purchase plans and conducting price
                                             analysis. We also recommended
Our objective was to determine whether       management develop a process to
the Postal Service awarded the Diebold       capture and analyze applicable data to
contract in accordance with Postal           support internal cost estimates when
Service policies and procedures.             considering outsourcing in the future.

WHAT THE OIG FOUND:                          Link to review the entire report
The Postal Service did not award the
Diebold contract in accordance with
Postal Service policies and procedures.
Officials did not develop a purchase
plan or conduct a price analysis before
awarding the contract. As a result,
June 4, 2014

MEMORANDUM FOR:             SUSAN M. BROWNELL
                            VICE PRESIDENT, SUPPLY MANAGEMENT

                            DREW T. ALIPERTO
                            VICE PRESIDENT, WESTERN AREA




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Finance and Supply Management

SUBJECT:                    Audit Report – Award of the Diebold, Inc. Contract
                            (Report Number SM-AR-14-005)

This report presents the results of our audit of the Award of the Diebold, Inc. Contract
(Project Number 13YG007SM000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Keshia L. Trafton, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Award of the Diebold, Inc. Contract                                                                                SM-AR-14-005




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Contract Planning ............................................................................................................ 2

Price Analysis .................................................................................................................. 3

Internal Cost Estimate ..................................................................................................... 3

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 8

   Background ................................................................................................................. 8

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary Impact ....................................................................................... 11

Appendix C: Timeline of Key Contract Events............................................................... 12

Appendix D: Management’s Comments ........................................................................ 13
Award of the Diebold, Inc. Contract                                            SM-AR-14-005



Introduction

This report presents the results of our audit of the award of the Diebold, Inc. (Diebold)
contract (Project Number 13YG007SM000). The report responds to a request from
Senator Charles E. Grassley to review the U.S. Postal Service's award of the Diebold
contract. Our objective was to determine whether the Postal Service awarded the
contract in accordance with appropriate policies and procedures. See Appendix A for
additional information about this audit.

Postal Service maintenance mechanics traditionally have repaired and changed locks
for Postal Service-owned mailboxes. To reallocate maintenance mechanics from the
field, Western Area Maintenance Operations asked Supply Management to contract this
work. The Postal Service awarded a contract to Diebold on September 22, 2010, to
repair and change locks in the Western Area (see Figure 1). On November 10, 2011,
the American Postal Workers Union (APWU) filed a grievance with the Postal Service,
which was denied and arbitrated on July 6, 2012. The arbitrator found in favor of the
APWU and ordered the Postal Service to terminate the Diebold contract, which it did on
December 31, 2013, having paid Diebold $18,399,448 between January 2012 and
November 2013.

                                        Figure 1. Western Area




                Source: Postal Service, as of April 2011.




                                                        1
Award of the Diebold, Inc. Contract                                                                    SM-AR-14-005




Conclusion

The Postal Service did not award the Diebold contract in accordance with
Postal Service policies and procedures. Officials did not develop a purchase plan 1 or
conduct a price analysis 2 before awarding the contract. As a result, contracting officials
did not assess price reasonableness or obtain higher level review and approval as
required. We found the Postal Service did not conduct an analysis to establish the
contract payments of $18,399,448 provided the best value, 3 although this does not
necessarily indicate the Postal Service incurred losses. See Appendix B for monetary
impact details.

Further, officials inadequately analyzed Postal Service internal lock repair and
maintenance costs. Based on our calculations, they overestimated the annual cost
savings by $6,839,456 per year 4 and outsourced the work to Diebold based on this
inflated cost savings assumption.

Contract Planning

Postal Service officials did not adequately plan the Diebold contract award. Contracting
officials did not prepare a purchase plan even though they are required to do so for
awards anticipated to be $1 million or more. The purchase plan should contain the
rationale for the proposed purchase, define the best value to the Postal Service, and
have a higher level review and approval 5 by the appropriate authority.

Contracting officials stated they did not develop a purchase plan — believing that the
CSSP 6 satisfied the purchase plan elements — and they did not expect the purchase to
exceed $1 million. However, the intent of the CSSP is to achieve supply chain
management goals for a specific commodity. It does not contain many of the elements
of a purchase plan and contracting officials did not address major purchase plan
elements in the CSSP, such as budgeting, cost drivers, or best value. Further, had
contracting officials compiled their historical spend data during the contract planning

1
  A purchase plan provides the overall strategy for accomplishing and managing a purchase and is usually prepared
under the general direction of the Commodity Sourcing Strategy Plan, (CSSP), Supplying Principles and Practices
(SP&P), Section 2-1, Develop Purchase Plan.
2
  Assesses whether a supplier's price is fair and reasonable, given market conditions, to ensure that the best price
and best value are obtained for a given purchase. Some form of price analysis is required for every purchase. SP&P,
Section 2-26, Develop Proposal Evaluation Strategy.
3
  The basis of all Postal Service sourcing decisions, determined by analysis of a contract solicitation’s evaluation
factors and weightings in combination with a price analysis.
4
  We calculated the amount by taking the cost Postal Service officials claimed as savings per year ($7,498,690) and
subtracting it from our estimated total savings per year ($659,234), using the revised internal estimate we calculated
for the time required per lock repair.
5
  Review and approval of contractual actions provide oversight and an objective view of important business decisions
and enhance the process of obtaining best value. SP&P, Section 2-41.1, General. The appropriate approval authority
must review and approve purchase plans for competitive contracts valued at $1 million or more. SP&P, Section
2-41.2.1, Purchase Plans.
6
  A guide to systematically developing strategies for achieving supply chain management goals. It comprises spend
data, commodity segmentation, market research, pricing analysis, supplier capabilities, risk analysis, and best value
determination. SP&P, Section 2-1, Develop Purchase Plan.

                                                          2
Award of the Diebold, Inc. Contract                                                                      SM-AR-14-005



process, they would have determined the yearly estimated cost of Postal Service
personnel repairing locks was about $10 million, exceeding the $1 million threshold for
developing a purchase plan.

By not determining that lock repair costs would exceed $1 million and not developing a
purchase plan for the repairs, contracting officials did not define best value or make an
effective contracting determination. Also, because the purchase plan would have
required a higher level review, the Postal Service awarded the contract without proper
approval.

Price Analysis

Supply Management contracting officials did not conduct a price analysis of the
suppliers’ proposed prices. Supply Management awarded a firm-fixed 7 price contract to
Diebold in September 2010 with no specified pricing for lock repairs. 8 In his justification
for selecting Diebold from the nine suppliers that competed, the contracting officer
stated that Diebold’s proposed price of $ per hour was fair and reasonable, although
there was no evidence a price analysis had been conducted. Prior to Diebold
performing work on the contract, Western Area Maintenance Operations officials
renegotiated the lock repair price to $38.17 per lock. See Appendix C for a timeline of
key contract events.

Contracting officials should conduct some form of price analysis that compares
competitive offers for every purchase. 9 They did not conduct this analysis because they
thought they were establishing only a preliminary agreement with Diebold, with no
commitment and with pricing to be negotiated later. However, e-mails between
contracting officials and maintenance managers and a best value determination showed
contracting officials asserted Diebold’s proposed price of $ per hour 10 was fair and
reasonable, despite having no analysis to support this conclusion. Because there was
no established pricing and no price analysis, the Postal Service did not assess price
reasonableness and entered into a contract that may not have provided the best value.

Internal Cost Estimate

Western Area Maintenance Operations and Supply Management conducted an internal
cost estimate after contract award but did not thoroughly analyze the cost of
Postal Service employees repairing and maintaining locks. Using Electronic
Maintenance Activity Reporting and Scheduling System (eMARS) 11 data, officials
calculated 2.7 hours per lock change. This resulted in an internal cost estimate of

7
  A firm-fixed price contract obligates the supplier to deliver the specified product or service for a fixed price. SP&P,
Section 2-18.3, Firm-Fixed-Price Contract.
8
  The initial contract was awarded as firm-fixed price and changed to a firm-fixed price indefinite-quantity contract
through a July 2011 modification.
9
  SP&P, Section 2-34, Conduct Price/Cost Analysis.
10
   Although the best value determination did not include pricing, it references Diebold's pricing proposal.
11
   eMARS provides maintenance tracking, inventory management, and reporting for parts and labor for Postal Service
buildings and equipment nationwide.

                                                           3
Award of the Diebold, Inc. Contract                                                                   SM-AR-14-005



$137.70 per lock change, assuming a cost of $51 per hour for Postal Service
employees to repair locks and only one lock changed per work order. But officials did
not scrutinize all of the data to eliminate inapplicable work orders and hours.

Western Area Maintenance Operations and Supply Management stated they relied on
total work order hours and assumed one lock change per work order to determine the
cost per lock change because there is no way to know exactly how many locks were
changed for each work order. The eMARS work order data were the only objective data
available. Western Area Maintenance Operations removed the Big Sky District from the
calculations for being an outlier 12 but did not remove individual work orders that showed
excessive repair hours.

According to the eMARS program specialist, officials should have only used hours
categorized as corrective maintenance 13 for lock changes and repairs. 14 Also, while
district maintenance managers and the eMARS program specialist stated that work
orders do not capture the number of locks repaired per work order, removing work
orders that appear to be outliers would better refine the estimate. For example, of the
78,042 work orders for fiscal year (FY) 2009, 356 contained more than 50 hours, while
1,068 showed more than 10 hours. Estimates from district maintenance managers and
the eMARS program specialist for a single lock change ranged from about 30 to 90
minutes. One district maintenance manager stated that work orders exceeding 5 hours
probably include more than one lock change or repair. 15 Officials should have
eliminated standing work orders 16 because they included more than one lock change.

The contracting officer subtracted the Diebold per lock cost of $38.17 from the internal
cost of $137.70 to generate a savings of $99.53 per lock, or a first year savings of
$7,498,690. 17 We calculated a revised time estimate per lock repair of .92 hours (from
2.7 hours) if management used only corrective maintenance hours and excluded
standing work orders and those exceeding 5 hours. This would reduce the internal cost
estimate from $137.70 to $46.92 18 per lock repair ― resulting in a reduction of the cost
savings per lock to $8.75 or an annual cost savings of $659,234. Without thoroughly
analyzing internal costs, contracting officials overestimated the cost savings by about

12
   The Big Sky District averaged 37 hours per work order in the eMARS data and was removed from the calculations
for being outside the norm.
13
   Repair or replacement of a failed or defective part or subassembly or assembly of equipment, which returns it to
operating condition. Administrative Support Manual 13, Section 531.321, Corrective Maintenance Definition.
14
   Western Area Maintenance Operations officials left operational and preventive maintenance hours in the data
because they attributed their presence to data input errors rather than inapplicable codes. Including these work
orders has only a negligible effect on the hours per work order estimate (less than .01 hours).
15
   The U.S. Postal Service Office of Inspector General (OIG) asked maintenance managers from each district for the
maximum time to complete a work order before they would consider that the work order contains multiple lock
repairs. Most respondents and the eMARS program specialist estimated no more than 1.5 hours, while the Colorado-
Wyoming District estimated 5 hours due to the large geographic territory it covers.
16
   Sites establish standing work orders to record multiple repairs and maintenance visits for similar work under one
work order.
17
   The contracting officer calculated cost savings per year by subtracting historic costs per year of $10,374,455.70
(75,341 locks per year multiplied by $137.70 per lock) by Diebold's cost per year of $2,875,765.97 (75,341 locks per
year at $38.17 per lock).
18
   We calculated the reduction of internal cost estimate by multiplying the revised estimate for time per lock of .92
hours by the $51 per hour internal cost of Postal Service employees doing the work.

                                                          4
Award of the Diebold, Inc. Contract                                                                    SM-AR-14-005



$90.78 per lock (or $6,839,456 per year19) and outsourced the work to Diebold based
on this inflated cost savings assumption (see Table 1).

                      Table 1. Cost Savings Breakdown and Comparison

                                                        Supply
                                                      Management                  OIG
             Cost Elements                            Calculation              Calculation           Difference
 Internal Time per Lock                                    2.7 hours               .92 hours           1.78 hours
 Internal Cost per Hour                                      $51.00                  $51.00                  -
 Internal Cost per Lock                                     $137.70                  $46.92                $90.78
 Diebold Price per Lock                                      $38.17                  $38.17                  -
 Savings per Lock                                            $99.53                    $8.75               $90.78

 Number of Locks per Year                                         75,341               75,341                -
 Savings per Year                                             $7,498,690             $659,234          $6,839,456
Note: OIG calculations assumed one lock repair per work order. Some work orders contained more than one repair
but all had, at least one lock repair.
"-" means the item is not applicable or is zero.
Source: OIG calculations and Postal Service Supply Management cost analysis for Diebold contract.

Recommendations

We recommend the vice president, Supply Management, direct the manager, Customer
Products and Fulfillment, to:

1. Train contracting officials to develop a purchase plan for purchases exceeding
   $1 million and conduct a price analysis prior to awarding supplier contracts.

We recommend the vice president, Western Area, direct the manager, Western Area
Maintenance Operations, to:

2. Develop a process to capture and analyze applicable data to support internal cost
   estimates when considering outsourcing in the future.

Management’s Comments

Supply Management agreed with the findings, recommendation 1, and the monetary
impact related to contract planning and price analysis. Western Area management
disagreed with the internal cost estimates finding and the monetary impact but agreed,
in concept, with recommendation 2. 20


19
   We calculated the amount by taking the cost Postal Service officials claimed as savings per year ($7,498,690) and
subtracting it from our estimated total savings per year ($659,234), using the revised internal estimate we calculated
for the time required per lock repair.
20
   Note that the recommendation with associated monetary impact was not addressed to the Western Area.

                                                          5
Award of the Diebold, Inc. Contract                                                                 SM-AR-14-005



Regarding recommendation 1, Supply Management stated they took appropriate
administrative action for one employee and will train another employee on purchase
planning and cost and price analysis. Supply Management will also formally
communicate to all of its contracting officials the necessity of following policy for
purchase planning and conducting price analysis to determine fair and reasonable
prices prior to contract award. The target implementation date is July 31, 2014.

Western Area management agreed with the internal cost estimates portion of
recommendation 2 and stated that they will continue due diligence activity on future
contracts. They agreed with the concept of having a process to analyze and capture
data when outsourcing; however, they stated that their data systems and methodology
for determining whether to outsource lock change work using the Diebold contract are
reasonable and accurate. They stated that they used appropriate data from eMARS to
estimate cost prior to contracting. Further, they also spoke with a maintenance
management specialist who indicated that maintenance clerks have mistakenly input
lock change work as preventive and operational maintenance, which is why officials left
work orders with those designations in the calculations. Finally, they told us that they
spoke with maintenance managers who agreed that the workhours in eMARS were
appropriate.

Western Area management also pointed to the July 6, 2012, arbitration, stating that the
arbitrator found no issue with Article 32, 21 which was written to support the outsourcing
action, and the data used provided an adequate representation for management’s
decision to contract out the work.

Further, Western Area management stated that using the OIG’s reduced number of
hours still shows a savings of $659,234 per year, or the equivalent of the annual
salaries of seven full-time equivalent employees. They added that they did not base
contracting lock change work solely on cost savings, but also on being able to provide
timely repairs and use reduced staff to maintain the equipment.

See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s planned corrective actions should resolve the issues identified in the
report.

Regarding management’s comments on recommendation 2, we did not question the
accuracy of workhours in eMARS. Rather, we questioned the methodology that Western
Area Maintenance Operations and Supply Management officials used to analyze this
data. We found that, although the hours recorded in eMARS may reflect the total time
worked for repairing locks, the data required further scrutiny for an accurate estimate of

21
  Article 32 is part of the Collective Bargaining Agreement between the Postal Service and APWU. It provides
guidance on what the Postal Service should consider when subcontracting bargaining unit work.

                                                         6
Award of the Diebold, Inc. Contract                                          SM-AR-14-005



the actual time spent on each lock repair. Management stated that they included
preventive and operational maintenance workhours because maintenance clerks
mistakenly coded the workhours; however, eMARS has not been updated to correct
these errors. We also spoke with maintenance managers during our audit to develop
our estimates of the time per lock repair. Maintenance managers stated that while
eMARS did not capture locks repaired per work order, removing work orders that
appear to be outliers would better refine the estimate.

Additionally, although our revised estimate of time per lock change still reflects a
savings of $659,234, the $6,839,456 difference between the two estimates
demonstrates the importance of scrutinizing data when developing these estimates.
Even if the Diebold contract provided cost savings, a process for capturing and
analyzing more applicable data to support internal cost estimates would contribute to
more informed decision making in future purchases.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. Management agreed with the intent of
recommendation 2 to analyze and capture data when outsourcing, and their planned
actions to continue due diligence activity on any future contracts should resolve
recommendation 2. Therefore, we are closing this recommendation with the issuance of
this report. Recommendation 1 should not be closed in the Postal Service’s follow-up
tracking system until the OIG provides written confirmation that the recommendation
can be closed.




                                           7
Award of the Diebold, Inc. Contract                                                                    SM-AR-14-005




                                 Appendix A: Additional Information

Background

Postal Service maintenance mechanics traditionally have repaired and changed locks
for Postal Service-owned mailboxes. To reallocate maintenance mechanics from the
field to mail processing centers, Western Area Maintenance Operations asked Supply
Management to contract this work. The Postal Service awarded a contract to Diebold on
September 22, 2010, to repair and maintain locks in the Western Area, paying Diebold
$18,399,448 from January 30, 2012, through November 27, 2013.

Western Area Maintenance Operations provided a statement of work and pulled data
from eMARS pertaining to Postal Service personnel changing and repairing locks during
FY 2009. The contracting officer documented that, of the 13 suppliers responding to the
Postal Service’s request for proposals, only Diebold had the technical capability to do
the work for the entire Western Area and proposed a price of $ per hour. The Postal
Service awarded a firm-fixed priced contract to Diebold on September 22, 2010, on
technical merit but did not specify pricing in the contract.

Diebold’s proposed price of $ per hour was higher than the estimated $51 per hour
for Postal Service employees doing the work and was not cost effective for the Postal
Service; therefore, Western Area Maintenance Operations officials renegotiated $38.17
as the cost per lock repair. The contracting officer analyzed the cost, estimating that
contracting with Diebold would save the Postal Service $7,498,690 the first year.

The contracting officer completed a written review to show that contracting out
maintenance of delivery collection and cluster boxes was cost effective and protected
the interests of the Postal Service. On June 10, 2011, the contracting officer modified
the contract to establish the $38.17 per lock repair price and add other parameters and
clauses to the contract.

The APWU22 filed a grievance with the Postal Service on November 10, 2011,
contending that Diebold technicians replaced Postal Service maintenance personnel in
repairing and maintaining locks and that the contract was not cost effective. The Postal
Service denied the grievance in June 2012 and went to arbitration in December 2012.
The union argued that the Postal Service should not have contracted the work. The
arbitrator agreed with the union and ordered the Postal Service to terminate the Diebold
contract, which it did on December 31, 2013. See Appendix C for a timeline of key
contract events.



22
  The APWU is the world's largest postal union, representing more than 220,000 Postal Service employees and
retirees and nearly 2,000 private sector mail workers. Depending on their occupation, APWU members belong to the
Clerk, Maintenance, Motor Vehicle, or Support Services division. The union's state and local affiliates are
autonomous organizations that rely on the national union to represent their interests in contract negotiations and in
national grievances.

                                                          8
Award of the Diebold, Inc. Contract                                                                   SM-AR-14-005




Objective, Scope, and Methodology

Our audit objective was to determine whether the Postal Service effectively awarded the
Diebold contract in accordance with Postal Service policies and procedures. To
accomplish our objective, we:

    Reviewed Postal Service criteria, guidelines, and procedures on awarding contracts.

    Interviewed the Supply Management contracting officer and the Western Area
     Maintenance Operations manager to determine why they did not award the contract
     following the SP&P. We specifically asked why they renegotiated costs after
     awarding the contract.

    Surveyed and interviewed district maintenance managers and the eMARS program
     manager to determine how to identify broken locks, estimate the repair time per lock
     for their district, and determine criteria for generating a more accurate estimate of
     required repair time per lock.

    Analyzed eMARS data to determine whether the maintenance hours used to support
     the cost analysis reflect more than one lock change or other maintenance work per
     work order.

    Independently analyzed data to more accurately estimate the time required per lock
     repair.
We conducted this performance audit from November 2012 through May 2014, 23
following generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on May 1, 2014, and included their
comments where appropriate.

We assessed the reliability of Contract Authoring Management System 24 data by
validating contract documents with contracting officials. We tested the reliability of the
eMARS data by interviewing officials to determine whether the data capture repair time
needed per lock change. The eMARS data were not reliable for estimating the Postal
Service’s internal costs; therefore, we independently analyzed the data to develop a
more reliable result for repair time per lock.


23
   We suspended the audit pending labor arbitration in January 2013 and resumed work in October 2013. We
suspended the audit again between February and April 2014 pending the arbitration settlement.
24
   A contract writing tool that facilitates the solicitation, award, and administration of various contracts.

                                                          9
Award of the Diebold, Inc. Contract                                              SM-AR-14-005



Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                             10
Award of the Diebold, Inc. Contract                                                                  SM-AR-14-005



                                     Appendix B: Monetary Impact


        Recommendation                          Impact Category                                 Amount
              1                           Unsupported Questioned Costs25                      $18,399,448

The $18,399,448 represents total payments26 the Postal Service made to Diebold under
a contract that officials awarded without following appropriate policies and procedures
and showing they planned and analyzed proposed pricing or estimated the cost of
Postal Service personnel repairing and maintaining locks.

We claimed this amount as unsupported questioned costs because there was missing
or incomplete documentation and the Postal Service did not follow required policy and
procedures. However, the claimed unsupported questioned costs do not indicate the
Postal Service incurred actual loss.




25
   A subset of questioned costs that is claimed because policy or required procedures were not followed but does not
necessarily connote any real damage to the Postal Service.
26
   Payments received from January 30, 2012, to November 27, 2013.

                                                         11
Award of the Diebold, Inc. Contract                                            SM-AR-14-005



                        Appendix C: Timeline of Key Contract Events

                                 Contracting Action                                Date
Postal Service issued solicitation for lock repairs and maintenance              7/20/2010
Diebold submitted price proposal of $ per hour                                   8/18/2010
Postal Service awarded contract to Diebold with no dollar value                  9/22/2010
Western Area Maintenance Operations manager informed of $ per hour
proposed price                                                                    2/1/2011
Western Area Maintenance Operations manager/Labor Relations finalized the
area-wide Article 32 for the Diebold contract                                    3/18/2011
Western Area Maintenance Operations manager renegotiated $ per hour price
to $38.17 per lock price                                                          5/1/2011
Contract modification issued to include pricing terms and conditions             6/10/2011
Western Area Maintenance Operations manager/Labor Relations advised APWU
national business agents of their consideration of the Article 32 factors        7/14/2011
Western Area Maintenance Operations manager forwarded final Diebold contract     8/11/2011
Diebold contractors began work                                                   10/1/2011
APWU filed grievance with the Postal Service                                    11/10/2011
Western Area Labor Relations denied grievance                                    6/22/2012
APWU appealed to arbitration                                                      7/6/2012
Diebold contract renewed for second term                                         9/19/2012
Arbitration hearing began                                                       12/13/2012
Arbitrator rendered decision to terminate contract                               9/26/2013
Postal Service terminated Diebold contract                                      12/31/2013
Source: OIG analysis.




                                            12
Award of the Diebold, Inc. Contract                             SM-AR-14-005




                            Appendix D: Management’s Comments




                                           13
Award of the Diebold, Inc. Contract        SM-AR-14-005




                                      14
Award of the Diebold, Inc. Contract        SM-AR-14-005




                                      15
